<html>
<title> - TECHNOLOGY NEEDED TO SECURE AMERICA'S BORDER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                              


 
                      TECHNOLOGY NEEDED TO SECURE
                            AMERICA'S BORDER

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2014

                               __________

                           Serial No. 113-90

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
       
                                   ______________
       
                          U.S. GOVERNMENT PUBLISHING OFFICE
     89-419PDF                   WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
     
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
KEVIN CRAMER, North Dakota           EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas






                                     (II)






                            C O N T E N T S

                             July 31, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Paul Broun, Chairman, Subcommittee on 
  Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    11
    Written Statement............................................    12

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

                               Witnesses:

Dr. K. Jack Riley, Vice President, RAND National Security 
  Research Division; Director, RAND National Defense Research 
  Institute
    Oral Statement...............................................    16
    Written Statement............................................    18

Mr. David C. Maurer, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Joseph D. Eyerman, Director, Health Security Program, RTI 
  International; Director for Research and Management, Institute 
  for Homeland Security Solutions, Duke University
    Oral Statement...............................................    49
    Written Statement............................................    51

Discussion.......................................................    57

             Appendix I: Answers to Post-Hearing Questions

Dr. K. Jack Riley, Vice President, RAND National Security 
  Research Division; Director, RAND National Defense Research 
  Institute......................................................    68

Mr. David C. Maurer, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office..........................    71

            Appendix II: Additional Material for the Record

Prepared statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    82

Supporting information requested by Representative Lamar S. 
  Smith, Chairman, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    84


              TECHNOLOGY NEEDED TO SECURE AMERICA'S BORDER

                              ----------                              


                        THURSDAY, JULY 31, 2014

                  House of Representatives,
       Subcommittee on Research and Technology and 
                         Subcommittee on Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee on Research and 
Technology] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bucshon. Good morning. This joint hearing of the 
Subcommittee on Research and Technology and the Subcommittee on 
Oversight will come to order.
    Good morning, and welcome to today's joint hearing titled 
``Technology Needed to Secure America's Border.''
    In front of you are packets containing the written 
testimony, biographies and Truth in Testimony disclosures for 
today's witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so that all Members understand how the 
question-and-answer period will be handled. We will recognize 
those Members present at the gavel in order of seniority on the 
full Committee and those coming in after the gavel will be 
recognized in order of arrival. I recognize myself now for five 
minutes for an opening statement.
    Twelve years ago, the Homeland Security Act established the 
Directorate for Science and Technology within the Department of 
Homeland Security. The S&T Directorate manages and carries out 
science and technology research for our federal homeland 
security needs. The Directorate is also responsible for 
coordinating this research with other federal research 
entities. The Committee on Science, Space, and Technology 
shares oversight of the S&T Directorate with the Homeland 
Security Committee.
    Since this spring, this Subcommittee had been planning a 
joint hearing with our counterparts in the Homeland Security 
Committee to hear from the Department of Homeland Security S&T 
Directorate, so this has been a long-planned hearing. It is 
just that today is the day that it would work for us to do 
this. Unfortunately, the Department of Homeland Security could 
not work that into their schedule but there will be another 
hearing in September that will complete this hearing.
    Unfortunately, we could not make the calendars come 
together, like I said, and I am looking forward to the 
Department of Homeland Security testifying in September.
    The DHS S&T Directorate is responsible for developing new 
technologies from basic research to development for use, 
including technologies that can help to secure our Nation's 
border. From unmanned aerial vehicles, to tunnel detection, 
from anti-counterfeit standards to biometrics, there are 
existing and promising new technologies that can act as force 
multipliers for Border Patrol agents and the Coast Guard to 
augment their day-to-day work on border security related 
issues.
    We will hear this morning from the Government 
Accountability Office, which has issued a series of reports 
about DHS technology research and development, and from two 
private-sector experts, each of whom can contribute on a 
different aspect of border security technology. I look forward 
to hearing from all of our witnesses.
    [The prepared statement of Mr. Bucshon follows:]

   Prepared Statement of the Subcommittee on Research and Technology
                         Chairman Larry Bucshon

    Twelve years ago, the Homeland Security Act (PL 107-296) 
established the Directorate for Science and Technology (S&T 
Directorate) within the Department of Homeland Security (DHS).
    The S&T Directorate manages and carries out science and technology 
research for our federal homeland security needs. The Directorate is 
also responsible for coordinating this research with other federal 
research entities. The Committee on Science, Space, and Technology 
shares oversight of the S&T Directorate with the Homeland Security 
Committee.
    Since this spring, this Subcommittee had been planning a joint 
hearing with our counterparts in the Homeland Security Committee to 
hear from the Department of Homeland Security S&T Directorate. 
Unfortunately, we could not make our Subcommittee's calendars meet this 
month so we will use this hearing to inform a joint hearing in 
September. At that hearing, we will focus on testimony and discussion 
with the head of DHS S&T.
    The DHS S&T Directorate is responsible developing new technologies 
from basic research to development for use, including technologies that 
can help to secure our nation's border. From unmanned aerial vehicles, 
to tunnel detection, from anti-counterfeit standards to biometrics, 
there are existing and promising new technologies that can act as force 
multipliers for border patrol agents and the Coast Guard to augment 
their day to day work on border security related issues.
    We will hear this morning from the Government Accountability 
Office, which has issued a series of reports about DHS Technology 
research and development, and from two private sector experts, each of 
whom can contribute on a different aspect of border security 
technology. I look forward to hearing from all of our witnesses.

    Chairman Bucshon. I now recognize the Ranking Member, the 
gentleman from Illinois, Mr. Lipinski, for an opening 
statement.
    Mr. Lipinski. Thank you, Mr. Chairman, for calling this 
hearing today, and thank you to our witnesses for providing 
valuable testimony on this issue.
    Today we will hear about how the Department of Homeland 
Security can improve its research and development efforts on 
technology to secure America's borders. With growing turmoil 
around the world, the threats we face at our borders are more 
pressing than ever. These threats include terrorists and 
criminals entering our country, human trafficking, drug 
trafficking, and other dangerous materials and substances being 
smuggled into the United States. As has been said many times, 
those wishing America harm only need to get it right once. To 
keep America safe, we need to get it right every time. This 
daunting task falls largely on the shoulders of DHS.
    As a member of both the Science, Space, and Technology 
Committee and the Transportation and Infrastructure Committee, 
I am especially concerned with border security as it relates to 
transportation. Last week I met with the Commissioner of U.S. 
Customs and Border Protection, Gil Kerlikowske, on their 
efforts to develop technologies such as the fingerprint 
scanners at O'Hare Airport in Chicago as part of CBP's Global 
Entry program.
    Science and technology plays a critical role in addressing 
our homeland security challenge. However, the Department has 
been plagued with problems in its planning and management of 
research and development. The agency is young, having been only 
created 11 years ago. While I do not envy the task of stitching 
together several government programs and functions into a new 
agency, I remain concerned that several of the problems we saw 
in the agency's initial years remain today.
    As GAO has previously stated, the Department cannot tell us 
how much they invest in R&D. There is a lack of effective 
communication between operational components and the Science 
and Technology Directorate. Furthermore, there is still no 
strategic plan in place to guide the Department's research and 
development activities.
    It is important to understand the steps the agency goes 
through when identifying and solving a technological problem, 
whether for border security or another mission need. When 
agents in the field identify a technological challenge, how is 
this need passed along to the researchers developing the 
technology? The communication between the operational 
components of DHS and the researchers at the Science and 
Technology Directorate has to be improved.
    Once a technology is developed, it must be thoroughly 
tested and evaluated to see that it not only functions as 
intended, but is adapted for the environment in which it will 
operate. Understanding how CBP agents or other customers in the 
field will use the technology and what additional improvements 
should be made is a key step in successfully deploying the 
technology. Without understanding the human elements in this 
process, I am concerned we could be investing significant 
federal resources in potentially unusable technology. I look 
forward to hearing from Dr. Eyerman about the importance of 
social science in the evaluation and deployment of new 
technologies at DHS.
    Securing our borders is a difficult and complex problem. 
People and materials can enter by air, land, and sea. This 
requires our border security efforts to not only effectively 
communicate internally, but also coordinate with other federal 
agencies, as well as state and local governments. I hope our 
discussion today provides the Committee with recommendations to 
inform our oversight and legislative responsibilities for R&D 
at the Department of Homeland Security. And I look forward to 
hearing about how public- and private-sector innovation can 
help protect the American border.
    Thank you Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Lipinski follows:]

   Prepared Statement of the Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you Mr. Chairman for calling this hearing today, and thank 
you to the witnesses for providing valuable testimony on this issue.
    Today we will hear about how the Department of Homeland Security 
can improve its research and development efforts on technology to 
secure America's borders. With growing turmoil around the world, the 
threats we face at our borders are more pressing than ever. These 
threats include terrorists and criminals entering our country, human 
trafficking, drug trafficking, and other dangerous materials and 
substances being smuggled into the U.S. As has been said many times, 
those wishing America harm only need to get it right once--to keep 
America safe, we need to get it right every time. This daunting task 
falls largely on the shoulders of DHS. As a member of both the Science, 
Space, and Technology Committee and the Transportation and 
Infrastructure Committee, I am especially concerned with border 
security as it relates to transportation. Last week I met with the 
Commissioner of U.S. Customs and Border Protection, Gil Kerlikowske, on 
their efforts to develop technologies such as the fingerprint scanners 
at O'Hare Airport in Chicago as part of CBP's Global Entry program.
    Science and technology plays a critical role in addressing our 
homeland security challenges. However, the Department has been plagued 
with problems in its planning and management of research and 
development. The agency is young, having only been created 11 years 
ago. While I do not envy the task of stitching together several 
government programs and functions into a new agency, I remain concerned 
that several of the problems we saw in the agency's initial yearsremain 
today.
    As GAO has previously stated, the Department cannot tell us how 
much they invest in R&D. There is a lack of effective communication 
between operational components and the Science & Technology 
Directorate. Furthermore, there is still no strategic plan in place to 
guide the Department's research and development activities.
    It is important to understand the steps the agency goes through 
when identifying and solving a technological problem, whether for 
border security or another mission need. When agents in the field 
identify a technological challenge, how is this need passed along to 
the researchers developing the technology? The communication between 
the operational components of DHS and the researchers at the Science & 
Technology Directorate must be improved.
    Once a technology is developed it must be thoroughly tested and 
evaluated to see that it not only functions as intended, but is adapted 
for the environment in which it will operate. Understanding how CBP 
agents or other customers in the field will use the technology and what 
additional improvements should be made is a key step in successfully 
deploying the technology. Without understanding the human elements in 
this process, I am concerned we could be investing significant federal 
resources in potentially unusable technology. I look forward to hearing 
from Dr. Eyerman about the importance of social science in the 
evaluation and deployment of new technologies at DHS.
    Securing our borders is a difficult and complex problem. People and 
materials can enter by air, land, and sea. This requires our border 
security efforts to not only effectively communicate internally, but 
also coordinate with other federal agencies, as well as state and local 
governments. I hope our discussion today provides the Committee with 
recommendations to inform our oversight and legislative 
responsibilities for R&D at the Department of Homeland Security. And I 
look forward to hearing about how public and private sector innovation 
can help protect the American border.
    Thank you Mr. Chairman. I yield back the balance of my time.
    Chairman Bucshon. Thank you, Mr. Lipinski. The Chair now 
recognizes the Chairman of the Subcommittee on Oversight, the 
gentleman from Georgia, Dr. Broun, for his opening statement.
    Chairman Broun. Thank you, Dr. Bucshon, and I welcome all 
of you all here today as witnesses, and I am looking forward to 
hearing from all of you all about this very important issue.
    Earlier this month, I traveled to the southern border of 
our country with the Homeland Security Committee. We held a 
field hearing in McAllen, Texas, on July 3rd where we discussed 
the recent surge of unaccompanied minors (UACs) crossing the 
border. I was astounded to learn that the number of children 
illegally entering the United States from Central America has 
grown from approximately 5,000 of them a year to an estimated 
57,000 so far this year, and they are projecting up to 90,000 
in this fiscal year. An influx of this extent raises questions 
about the security of our southern border. Currently, Border 
Patrol agents are inundated with processing unaccompanied 
minors and not fulfilling their primary mission to safeguard 
the border against terrorists entering the country under the 
radar as well as drugs and other things that are entering. It 
is a national security issue as far as I am concerned.
    In order to protect the nearly 2,000-mile southwest border, 
patrol agents would benefit from advances in modern technology 
such as video monitors, sensors, radars, cameras, thermal-
imaging devices, and drones. However, there are many flaws 
within the various DHS components that conduct technology 
research and development, which include problems in the 
management, coordination, and acquisition of items needed to 
help secure our American border.
    A 2012 GAO report notes that, ``The Department of Homeland 
Security does not know the total amount its components invest 
in research and development and does not have policies and 
guidance for defining R&D and overseeing R&D resources across 
the Department.'' Further, a 2013 GAO report cites examples 
where projects were delayed and cancelled due to an inability 
to obtain data from DHS. This is intolerable.
    The DHS Science and Technology Directorate states on its 
own Web site that it is ``the primary research and development 
arm of the Department of Homeland Security and manages science 
and technology research, from development through transition, 
for the Department's operational components and first 
responders to protect the homeland.'' How can this primary 
research and development arm not have any idea of the total 
amount of taxpayer money being invested on technology to 
detect, prevent, and mitigate threats to our Nation? This is 
not the prescription to protect our homeland.
    As the Chairman of this Committee's Oversight Subcommittee, 
I value transparency and accountability. The S&T Directorate 
needs to lay out a clear and comprehensive plan to manage 
research and development activities and coordinate with other 
entities to ensure the deployment of effective state-of-the-art 
technology in a timely fashion. Absent a strategic technology 
roadmap, our citizens will remain vulnerable to threats 
stemming from our unsecure border.
    Thank you, Dr. Bucshon, and thank you, Mr. Chairman, for 
holding this very important hearing, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Broun follows:]

          Prepared Statement of the Subcommittee on Oversight
                          Chairman Paul Broun

    Earlier this month, I traveled to the Southern border of our 
country with the Homeland Security Committee. We held a field hearing 
in McAllen, Texas, where we discussed the recent surge of unaccompanied 
minors crossing the border. I was astounded to learn that the number of 
children illegally entering the United States from Central America has 
grown from under 5,000 a year to an estimated 57,000 so far this year. 
An influx of this extent raises questions about the security of our 
Southern border. Currently, border patrol agents are inundated with 
processing unaccompanied minors and not fulfilling their primary 
mission to safeguard the border against terrorists entering the country 
under the radar.
    In order to protect the nearly 2,000 mile Southwest border, patrol 
agents would benefit from advances in modern technology such as video 
monitors, sensors, radars, cameras, thermal-imaging devices, and 
drones. However, there are many flaws within the various DHS components 
that conduct technology research and development, which include 
problems in the management, coordination, and acquisition of items 
needed to help secure the American border.
    A 2012 GAO report notes that, ``The Department of Homeland Security 
does not know the total amount its components invest in research and 
development and does not have policies and guidance for defining R&D 
and overseeing R&D resources across the Department.'' Further, a 2013 
GAO report cites examples where projects were delayed and cancelled due 
to an inability to obtain data from DHS.
    This is intolerable. The DHS Science and Technology Directorate 
states on its own website that it is ``the primary research and 
development arm of the Department of Homeland Security and manages 
science and technology research, from development through transition, 
for the Department's operational components and first responders to 
protect the homeland.'' How can this primary research and development 
arm not have any idea of the total amount of taxpayer money being 
invested on technology to detect, prevent, and mitigate threats to our 
nation? This is not the prescription to protect our homeland.
    As the Chairman of this Committee's Oversight Subcommittee, I value 
transparency and accountability. The S&T Directorate needs to lay out a 
clear and comprehensive plan to manage research and development 
activities, and coordinate with other entities to ensure the deployment 
of effective state-of-the-art technology in a timely fashion. Absent a 
strategic technology roadmap, our citizens will remain vulnerable to 
the threats stemming from an unsecure border.
    Thank you again, Chairman Bucshon, for holding this very important 
hearing, and I yield back the balance of my time.

    Chairman Bucshon. Thank you, Dr. Broun. The Chair now 
recognizes the Ranking Member of the Subcommittee on Oversight, 
Mr. Maffei of New York, for his opening statement.
    Mr. Maffei. Thank you very much, Mr. Chairman, and thank 
you, Chairman Bucshon, for holding this hearing, and I want to 
thank Chairman Broun as well and Ranking Member Lipinski.
    Our current system and approach to immigration is clearly 
not working. The challenges are complex and must be dealt with 
in a bipartisan way. The only way to fully address these 
challenges and make sure the crisis of unaccompanied children 
coming over the border is taken care of is to enact bipartisan 
comprehensive immigration reform. That is why I have 
cosponsored the bipartisan legislation that would, bolster 
security at our borders and uphold the immigration laws already 
on the books. The Senate has already passed this bipartisan 
immigration reform bill by a wide margin, and I do believe it 
is time for the House to act as well, at least to bring it up 
for a vote.
    What is essential is that we strengthen our borders and 
enforce our laws. That is essential to any nation's 
sovereignty, to control its own borders. But I want to say that 
I agree with Mr. Broun, my friend, Mr. Broun from Georgia, that 
border security must be focused on keeping terrorists and 
weapons of mass destruction as well as illegal firearms and 
dangerous drugs entering the United States, again, the need for 
reform.
    For the purposes of this hearing, I look forward to hearing 
witnesses' testimony on the research, development, and 
implementation of new technologies on America's border and 
potential new technologies that might be more effective. It is 
unfortunate that the Committee was unable to obtain witnesses 
from the Department of Homeland Security's Science and 
Technology Directorate or host a joint hearing with the House 
Homeland Security Committee, as there is much overlap in this 
area, and that would have been more helpful.
    That said, I am very grateful to the Chairs for calling 
this hearing. It is extremely important. It is important in my 
district, which does have a border. It is a border with Canada, 
but I do want to also know what is going on in the northern 
border, and I know Dr. Maurer would probably share that 
interest since his family is from Wayne County, which is in my 
district and does have that water border with Canada.
    Being able to accurately monitor the integrity of U.S. 
borders is essential to maintaining border and national 
security, which is essential to our sovereignty. I look forward 
to our witnesses helping us to better understand the science 
behind these issues, and evaluate how technology can augment 
and support the human resources that are ultimately responsible 
for maintaining our border security.
    I yield back.
    [The prepared statement of Mr. Maffei follows:]

   Prepared Statement of the Subcommittee on Research and Technology
                   Ranking Minority Member Dan Maffei

    Thank you Chairman Broun and Chairman Buschon for holding this 
hearing today.
    I believe we need to get serious and work to secure and strengthen 
our borders and enforce the laws already on the books. Our current 
system and approach to immigration is not working and we need 
comprehensive reform now, which is why I've cosponsored bipartisan 
legislation that would, bolster security at our borders and uphold the 
immigration laws already on the books. The Senate has already passed 
this bipartisan comprehensive immigration reform bill by a wide margin 
and it is time for the House to act as well. Border security is also 
about keeping terrorists and weapons of mass destruction from reaching 
our shores.
    For the purposes of this hearing, I look forward to hearing witness 
testimony on the research, development, and implementation of new 
technologies on America's border. It is unfortunate that the Committee 
was unable to obtain witnesses from the Department of Homeland 
Security's Science & Technology (S&T) Directorate or host a joint 
hearing with the House Homeland Security Committee, as there is much 
overlap in this issue area.
    My District shares a nautical border with Canada, and I would like 
to know learn more about what is being done to secure the Northern 
Border, in addition to the Southern Border.
    Being able to accurately monitor the integrity of U.S. borders is 
essential to maintaining border and national security. I look forward 
to our witnesses helping us to better understand the science behind 
these issues, and evaluate how technology can augment and support our 
human resources that are ultimately responsible for maintaining U.S 
border security.
    Chairman Bucshon. Thank you. I now recognize the Chairman 
of the full Committee, the gentleman from Texas.
    Chairman Smith. Thank you, Mr. Chairman.
    Now, we all are aware of the impact of illegal immigrant 
children who stream across our southern border. This is both a 
national security and a humanitarian crisis that we cannot 
allow to continue. A country that has lost control of its 
borders has lost control of its future.
    The President has ignored, failed to enforce, undermined, 
and unilaterally changed current immigration laws. As a result, 
millions of young people have risked their lives to make the 
dangerous trip and come here illegally. Further, the 
Administration has yet to present a plan to secure our Nation's 
borders. As border agents are forced to turn increased 
attention to the surge of minors concentrated in certain areas 
along the border, it leaves much of the rest of the border 
unprotected.
    Technology is a key component to securing our 2,000 mile 
Southern border. Customs and Border Protection and National 
Guard troops cannot be everywhere. Sensors deployed along the 
border can detect and track the ``coyotes'' who smuggle 
children as well as illegal drugs and firearms across the 
border. Sensors will help Border Patrol agents know where 
coyotes are so that they can intercept and stop them. And 
ground-penetrating radar can find buried tunnels that 
crisscross our border.
    We need to get this technology in the hands of our 
immigration officers. Unfortunately, the Department of Homeland 
Security has a poor track record when it comes to developing 
and fielding sensors and tactical communications infrastructure 
along the southwest border.
    The Government Accountability Office (GAO) finds the 
Department of Homeland Security's research and development 
efforts to be ``fragmented and overlapping.'' The Department's 
Science and Technology Directorate will spend $1.2 billion this 
year on numerous projects, some related to border security, but 
many are not. As in previous years, the GAO found hundreds of 
millions of dollars being spent each year on duplicative R&D 
projects by other offices within the Department. Frankly, no 
one knows who is in charge of research and development, or what 
the goal is. The GAO reports that the Science and Technology 
Directorate lost touch with its end users about what 
technologies and R&D projects should be a priority.
    Today's witnesses will testify on the need for the 
Department of Homeland Security to develop a plan to secure 
America's borders and how best to carry out that plan. Research 
and technology are key components to securing America's 
borders.
    In September, we will hear from the Department of Homeland 
Security Undersecretary for Science and Technology, a position 
created by this Committee in founding the Department, in a 
joint hearing with the Homeland Security Committee. We are 
working with them on draft legislation to set priorities for 
the Science and Technology Directorate on how to secure 
America's borders. I look forward to working with my colleagues 
in the weeks ahead to turn this goal into a reality.
    While there may be mixed feelings about the current 
situation on our southern border, we should all be able to 
agree that we can and we must secure America's borders with the 
help of technology.
    Thank you, Mr. Chairman. Yield back.
    [The prepared statement of Mr. Smith follows:]

                  Prepared Statement of Full Committee
                        Chairman Lamar S. Smith

    Thank you, Chairman Bucshon for holding this hearing. We all are 
aware of the impact of illegal immigrant children who stream across our 
Southern border. This is both a national security and a humanitarian 
crisis that we cannot allow to continue. A country that has lost 
control of its borders has lost control of its future.
    The President has ignored, failed to enforce, undermined, and 
unilaterally changed current immigration laws. As a result, millions of 
young people have risked their lives to make the dangerous trip and 
come here illegally.
    Further, the Administration has yet to present a plan to secure our 
nation's borders. As border agents are forced to turn increased 
attention to the surge of minors concentrated in certain areas along 
the border, it leaves much of the rest of the border unprotected.
    Technology is a key component to securing our 2,000 mile Southern 
border. Customs and Border Protection and National Guard troops cannot 
be everywhere.
    Sensors deployed along the border can detect and track the 
``coyotes'' who smuggle children--as well as illegal drugs and 
firearms--across the border. Sensors will help Border Patrol agents 
know where coyotes are so that they can intercept and stop them. And 
ground-penetrating radar can find buried tunnels that crisscross our 
border.
    We need to get this technology in the hands of our immigration 
officers. Unfortunately, the Department of Homeland Security has a poor 
track record when it comes to developing and fielding sensors and 
tactical communications infrastructure along the Southwest border.
    The Government Accountability Office (GAO) finds the Department of 
Homeland Security's research and development (R&D) efforts to be 
``fragmented and overlapping.''
    The Department's Science and Technology Directorate will spend $1.2 
billion this year on numerous projects, some related to border 
security, but many are not. As in previous years, the GAO found 
hundreds of millions of dollars being spent each year on duplicative 
R&D projects by other offices within the department.
    Frankly, no one knows who's in charge of research and development, 
or what the goal is. The GAO reports that the Science and Technology 
Directorate lost touch with its end-users about what technologies and 
R&D projects should be a priority.
    Today's witnesses will testify on the need for the Department of 
Homeland Security to develop a plan to secure America's borders and how 
best to carry out that plan. Research and technology are key components 
to securing America's borders.
    In September, we will hear from the Department of Homeland Security 
Undersecretary for Science and Technology--a position created by this 
Committee in founding the department--in a joint hearing with the 
Homeland Security Committee.
    We are working with them on draft legislation to set priorities for 
the Science and Technology Directorate on how to secure America's 
borders.I look forward to working with my colleagues in the weeks ahead 
to turn this goal into a reality. While there may be mixed feelings 
about the current situation on our Southern border, we should all be 
able to agree that we can--and we must--secure America's borders with 
the help of technology.

    Chairman Bucshon. Thank you, Chairman.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Chairman Bucshon. At this point I would like to introduce 
our witnesses. Our first witness, Dr. Jack Riley, is Vice 
President of RAND's National Security Research Division and 
Director of the National Defense Research Institute. Dr. Riley 
received his bachelor's from the University of Michigan, his 
master's from Georgetown, and his Ph.D. from the RAND Graduate 
School.
    Our second witness is Mr. David Maurer. He is a Director at 
the U.S. Government Accountability Office's Homeland Security 
and Justice Team. Mr. Maurer earned his bachelor's from 
Michigan State, the competition right next door, and his two 
master's degrees from the University of Michigan and National 
Defense University.
    Our third witness is Dr. Joseph Eyerman. Dr. Eyerman is Co-
Director of the Institute for Homeland Security Solutions, a 
senior research methodologist, and the Director of RTI 
International Center for Security, Safety and Defense. Dr. 
Eyerman received his bachelor's from Muskingum University, his 
two master's degrees from Florida State University and Miami 
University, and his Ph.D. from Florida State University. 
Welcome to all our witnesses.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee will 
have five minutes each to ask questions.
    It is the practice of the Subcommittee on Oversight to 
receive testimony under oath. Does anyone have a problem with 
that? If not, please stand and raise your right hand. Do you 
solemnly swear to affirm to tell the whole truth and nothing 
but the truth, so help you God? Let the record reflect that all 
the witnesses--you may be seated. Let the record reflect that 
all the witnesses participating have taken the oath.
    At this point I recognize Dr. Riley for five minutes to 
present his testimony.

        TESTIMONY OF DR. K. JACK RILEY, VICE PRESIDENT,

           RAND NATIONAL SECURITY RESEARCH DIVISION;

       DIRECTOR, RAND NATIONAL DEFENSE RESEARCH INSTITUTE

    Dr. Riley. Thank you, Chairmen Bucshon and Broun and 
Ranking Members Lipinski and Maffei, for the opportunity to 
testify today about strategic planning and technology needs for 
air, land and sea border security.
    Almost exactly eight years ago, I testified before two 
Homeland Security Subcommittees on this same topic, and at that 
time I said, and I quote, ``We have woefully underinvested in 
developing, evaluating and refining a comprehensive and 
integrated border security strategy. We have invested in 
numerous border security programs and initiatives but the 
impacts and the costs and the cost-effectiveness of virtually 
all of these initiatives are poorly understood.''
    Unfortunately, nearly a decade later, the same concerns 
still largely apply. So let me turn to three points that I will 
make in this testimony.
    First, we need to invest in measurement and data so that we 
have an empirical basis from which to have policy debates; 
second, we need to invest in more systematically understanding 
the cost-effectiveness of programs and policies; and third and 
finally, we need to systematically track and document how 
border control efforts affect the larger economy and society.
    Let me start my first point by explaining why the data gaps 
are so worrisome. Effective border security begins with 
understanding why and how people and contraband cross the 
border. Different motivations may require different policies. 
Migration, for example, motivated by the desire for economic 
betterment may be best controlled by a combination of border 
deterrence and labor-market enforcement. In contrast, smuggling 
of contraband may be best addressed by deterrence and 
technological detection.
    In my written testimony, I detail some of the ways in which 
we can capture this kind of data. However, as far as I can 
tell, none of these estimation methods have been formally 
adopted nor do they receive continued support for development 
and refinement. They should, however, so that they can become 
the foundation for a border security scorecard.
    I will turn now to my second point, why it is important to 
know about cost-effectiveness. Imagine that Secretary Johnson 
is presented with the opportunity to add 10,000 Border Patrol 
agents. Using the kind of data I just mentioned, he could not 
only assess the effectiveness of additional agents but give 
guidance on where and how to deploy them. We could also give 
guidance on what technologies might be good substitutes for or 
complements to the additional personnel. But equally 
importantly, we could say something about how migrants and 
smugglers would adapt to the presence of additional personnel. 
Indeed, with better data, we might be able to predict how 
behavior might adapt, and correspondingly modify our policies. 
At minimum, we would likely detect the changes in behavior 
earlier, which in turn would help improving future 
policymaking.
    Third, a word about the broader economic and social 
implications of the border. Policies designed to improve 
control over the border can propagate widely throughout the 
economy and society. To give one example, after 9/11 we changed 
visa policies to make it more difficult for terrorists to 
travel to the United States. However, by making it more 
difficult, we deter not only terrorists but also an unknown 
number of legitimate travelers--foreign tourists, foreign 
students, qualified foreign workers, whose presence provide 
great benefits to our economy and the vibrancy of our culture. 
In short, border enforcement directly and indirectly touches on 
every aspect of the economy and our livelihoods, and we should 
be systemically tracking these effects so that we understand 
the full costs and the full benefits of border security 
programs.
    At the beginning of this oral statement I mentioned I have 
three points. However, I want to add a fourth. Border security 
is one of the greatest analytic challenges of the post-9/11 
generation. It is a topic that can and should attract the best 
and the brightest minds. But it remains frustratingly difficult 
to work on the topic both because of departmental restrictions 
on access to the data that are collected and also because of 
departmental restrictions on publishing and academic 
engagement. Good science demands public scrutiny and rigorous 
academic engagement. I urge this Committee and the 
Subcommittees to exercise its oversight role and help make this 
topic better grounded in science and more attractive to the 
best analysts and researchers.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Dr. Riley follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Maurer for five minutes for his 
testimony.

               TESTIMONY OF MR. DAVID C. MAURER,

            DIRECTOR, HOMELAND SECURITY AND JUSTICE,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Bucshon, Chairman Broun, 
Chairman Smith, Ranking Member Lipinski, Ranking Member Maffei, 
and Members and staff. I am pleased to be here this morning to 
talk about the results of our recently issued work looking at 
research and development at the Department of Homeland Security 
and how those efforts are being used to enhance border 
security.
    R&D matters at DHS for a couple of reasons. First, the 
taxpayers provide DHS over $1 billion a year to support 
research and development. For that reason alone, the Department 
needs to ensure its R&D activities work as planned. R&D can 
also help DHS better execute its various missions. For example, 
improved technology to detect people or nuclear material helps 
DHS secure the border and ultimately the homeland.
    DHS has made important strides in recent years towards 
taking a more strategic approach. For example, the Science and 
Technology Directorate has a strategic plan, periodically 
reviews its portfolio of projects, and has developed new ways 
to coordinate with other DHS components. That last point is 
especially important since S&T strives to conduct its R&D work 
side by side with the eventual end users. But that said, DHS 
clearly has a lot of work ahead to bring coherence and 
structure to its research and development efforts.
    Our work over the past two years identified three key areas 
where DHS needs to improve. We found that DHS needed to define 
R&D, do a better job tracking R&D, and improve how it 
coordinates R&D. I will briefly expand on these three points.
    In September 2012, we reported that DHS lacked a common 
definition of research and development, and we found a lot of 
activity across the Department that could be considered R&D, 
and by law, S&T is responsible for coordinating and overseeing 
all of it, but they can't do that if the various DHS components 
aren't working from the same definition and agree on what 
should be coordinated. Our work also found several problems in 
DHS's efforts to essentially track R&D. As it turned out, DHS 
struggled to answer basic questions such as how much are you 
spending, which components are doing R&D, what projects are 
currently underway, and do completed projects meet the needs of 
their customers. For example, we found that DHS did not know 
how much its components invested in R&D, and that makes it 
really difficult to oversee activities across the entire 
Department. This inability to centrally track R&D also places 
DHS at risk of overlapping and duplicative efforts. We 
identified 35 instances where contracted R&D activity in one 
component overlapped with another.
    Our work also identified problems in DHS's ability to 
coordinate R&D. There are several R&D coordination mechanisms 
within DHS but they need to work better. For example, the 
report we issued last year on border and maritime found a mixed 
picture.
    The good news is that the Domestic Nuclear Detection Office 
and the Coast Guard regularly reach out to end users of their 
completed R&D Projects. However, S&T lacked any formal approach 
to follow-up with the end users of its deliverables. S&T's 
customers are also much more likely to report that S&T 
deliverables did not meet end-user needs, and in some 
instances, we were unable to locate an end user for an S&T 
project. For example, S&T spent more than $1 million on a 
project to enhance CBP's ability to track maritime vessels 
without having a specific customer at CBP. Our recent work also 
found problems in DHS's coordination of R&D work with the 
national labs.
    So what is DHS doing to better define, track and coordinate 
R&D? On the plus side, the Department now has a common 
definition for R&D, and that is an important first step. 
However, while DHS has taken some actions, they are still not 
sufficient to address our recommendations to improve how they 
track and coordinate R&D, and that is important because clearly 
defined, closely tracked and well-coordinated R&D activities 
will help translate state-of-the-art science into usable tools 
that can help enhance the security of our borders. We will keep 
the Committee informed on the Department's ongoing efforts to 
address our recommendations.
    Mr. Chairman, thank you. That concludes my opening remarks. 
I look forward to your questions.
    [The prepared statement of Mr. Maurer follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. Eyerman for five minutes for his 
testimony.

         TESTIMONY OF DR. JOSEPH D. EYERMAN, DIRECTOR,

          HEALTH SECURITY PROGRAM, RTI INTERNATIONAL;

             DIRECTOR FOR RESEARCH AND MANAGEMENT,

           INSTITUTE FOR HOMELAND SECURITY SOLUTIONS,

                        DUKE UNIVERSITY

    Dr. Eyerman. Good morning, Chairman Bucshon, Chairman 
Broun, Chairman Smith, Ranking Member Lipinski and Ranking 
Member Maffei, and distinguished Members of the Committee. I 
thank you for the opportunity to testify today regarding 
technology needed to secure America's borders. I have prepared 
written testimony, and request that it be entered into the 
record.
    I have been working closely with DHS Science and Technology 
Directorate on a series of program and technology evaluations 
for the past six years in my role as Director of the Institute 
for Homeland Security Solutions at RTI International. Our work 
with DHS is part of a larger RTI Project to better understand 
the human factors that contribute to the transition of new 
technologies into the public sector and the private market.
    I am a social scientist by training, and in my role with 
IHSS, I have had the opportunity to apply social science 
research methods to the evaluation of DHS programs and the 
application of new technologies. In my expert opinion, social 
science can help us understand the general public, that is, the 
customers, and the DHS staff who will use the new technologies. 
This is just as important when developing technologies for 
securing our borders as it is for the next big project from 
Apple or Google. Failure to understand the customer can cause 
us to develop new technologies that are never adopted or never 
used to their full potential. This increases cost and delays 
the transition to application.
    In our work with the DHS, we use social science methods to 
support technology development by S&T programs to better 
understand the end users and customers and things like staffing 
and training requirements, usability of the new technology, and 
public perceptions about privacy and safety. As part of our 
work, we have been fortunate enough to employ these methods in 
support of several DHS technologies including a DHS S&T-funded 
assessment of the rapid DNA pilot test, part of a study to 
develop technology for field DNA tests to support applications 
by refugees for entrance into the United States; a DHS S&T-
funded examination of non-technical barriers encountered by 
program managers designed to identify trends and patterns that 
can guide the program managers in the transition of future 
technologies; and finally, an assessment of non-technical 
factors that will contribute to the safe and successful 
transition of unmanned aircraft into the routine aspects of our 
economic and social lives.
    Some of the key findings of these studies that are relevant 
to the transition of DHS technology to border security are, 
first, strong and potentially beneficial technologies can be 
derailed by non-technical problems stemming from a failure to 
understand the needs and abilities of the workforce, the 
complexities of public perceptions and the willingness of the 
public to accept certain types of technologies into their daily 
lives. Second, the social science evaluation model is rarely 
applied to new technologies by DHS, and when it is applied, it 
is used in a limited and non-standard manner. This may delay 
the transition of technologies and may limit our ability to 
assess the impact and effectiveness of those technologies on 
the agency missions. Finally, complex technologies can develop 
at a slower rate than the operational realities of the 
components. This often results in technologies that are 
developed without a clear operational partner for 
implementation because needs have changed and priorities have 
shifted.
    My written testimony includes more detail on these and 
other technology assessments. We continue to examine these 
challenges and make recommendations for changes that will 
expedite the transition process to bring new technologies to 
bear on our security needs in a more efficient and timely 
manner.
    Thank you for your interest, and thank you for any 
questions you may have.
    [The prepared statement of Dr. Eyerman follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Bucshon. Thank you very much. I want to thank the 
witnesses for their testimony, and at this point remind Members 
that Committee rules limit questioning to five minutes. The 
Chair at this point will open the round of questions. I 
recognize myself for five minutes.
    Dr. Riley, what is the feasibility of adopting existing 
surveillance systems such as those used in Iraq and Afghanistan 
on the southern border?
    Dr. Riley. It is hard to answer the question without 
additional information.
    Chairman Bucshon. Well, for example, DoD has surveillance 
equipment that we currently use in Iraq and Afghanistan, mobile 
equipment and others that have some potential that we may not 
need to do duplicative scientific and technical research on 
that would make them applicable with the dual-use purpose of 
being used on the southern border, a similar concept.
    Dr. Riley. I would be in favor of a structured test to 
understand how they would work at the U.S. border and in which 
ways they can be effective, but at this point I am not 
convinced that we need significant investment in new 
technologies more than we need careful assessment of what we 
already have in place and how well the pieces work together.
    Chairman Bucshon. Understood.
    Mr. Maurer, from your past work with S&T, what are the most 
important lessons learned that you would like--you would share 
with the new S&T leadership?
    Mr. Maurer. Well, I think first and foremost, I would 
highlight the two remaining outstanding areas they have to show 
some more progress on, which is namely do a better job tracking 
and a better job coordinating the R&D efforts, not just within 
the Science and Technology Directorate but across the entire 
Department. S&T has had statutory responsibility, and frankly, 
they have struggled with having a close--having close 
coordination with some of the other operational components that 
are doing R&D activities. I would encourage them to take action 
on that front and ensure that what they--the other thing I 
would have them do is ensure that they are more tightly in tune 
with the needs of the eventual end users of the technologies 
they are developing. They are making strides toward that. His 
predecessor spent a lot of time and effort trying to get S&T 
more tightly bound with not just R&D but getting involved in 
acquisition as well, and I think that is a good step.
    Chairman Bucshon. I would agree with that, that it may very 
well be important to coordinate with the potential end user, 
although sometimes the end users don't really know what they 
might need until the inventors or people invent something that 
might be useful. I think Apple did that. That was kind of why 
they did no product research because they felt like people 
didn't really know what they would use until you develop it. So 
there is two arguments there, but I do think better 
coordination is very important.
    Through its authorizing statute, DHS S&T is responsible for 
developing a national policy and strategic plan for the federal 
government's civilian efforts to identify and develop 
countermeasures for emerging terrorist threats. S&T is also 
tasked with coordinating the development and management of 
science and technology agenda for DHS. To the best of my 
knowledge, DHS S&T has not yet accomplished either of these 
responsibilities.
    Dr. Riley and Mr. Maurer, both of you testified about the 
lack of coordination for border technology R&D within DHS. As 
we look toward reauthorizing the S&T Directorate, should these 
strategic planning and coordination responsibilities remain 
within DHS S&T? If so, how can we prompt movement on these 
important tasks? If not, where might they better be situated, 
and why? Mr. Maurer?
    Mr. Maurer. Yeah, I think it is important under the current 
statutory framework for S&T and the Department to do what the 
law required them to do, which is establish a strategy for 
within the Department and work with our partners across 
government. The broader policy issue of whether they should 
continue to have that responsibility and others, there is 
reauthorization language, is really a policy consideration. One 
thing that is important to keep in mind is that the amount of 
money that DHS spends on R&D is about one-sixth of the total 
that is spent across the entire federal government on Homeland 
Security-related R&D. So somebody somewhere is going to have to 
be involved in trying to bring coherence and coordination and 
oversight on that--on those funds.
    Chairman Bucshon. Dr. Riley?
    Dr. Riley. I will just add that one of the things that may 
or may not help--I am not sure I have made up my mind on this--
is better use of Under Secretary of Policy in the Department of 
Homeland Security. Right now that is an Assistant Secretary 
position, and one of the ways in which stitches may be dropped 
between the generation of technology and implementation and 
effective use of them is perhaps not having a counterpart on 
policy formulation and execution.
    Chairman Bucshon. Thank you. I recognize Mr. Lipinski for 
his line of questioning.
    Mr. Lipinski. Thank you.
    Dr. Eyerman, you have been working directly with DHS S&T 
for the past six years in evaluating their programs. In the 
latter part of your testimony, you listed a variety of barriers 
to successful transition of new technologies from the 
laboratory to the operational setting in the DHS components. 
Could you elaborate on what DHS can do to further the transfer 
of technology to users, and do you have any idea what has held 
DHS back in developing a strategy to address these challenges?
    Dr. Eyerman. Thank you for your question, Mr. Lipinski. I 
would say there are two issues that have affected the ability 
to increase the involvement of social science research in DHS 
technology transition. One is the absence of a standardized 
process for inserting social science research that involves the 
end users and the customers and the DHS staff in the study 
design, the project implementation and the assessment of the 
results, and I think that is primarily due to a lack of 
coordination within S&T around the social sciences. At one 
point there was a division in S&T focused on the human factors. 
That division has been removed and merged in with another 
division, and staff have been eliminated.
    Mr. Lipinski. Was there any particular reason that that was 
removed that you know of?
    Dr. Eyerman. I don't know the reason behind that. That is 
beyond my knowledge. I do know that many of the staff were 
retained but the second barrier, I think, to the adoption is 
the number of staff that are focused on social science research 
methods at DHS. I think the first issue could be addressed with 
better coordination and planning and a standardized process for 
inserting evaluation of the customers and the workers in the 
R&D cycle. The second one is more of a staffing and budget 
issue.
    Mr. Lipinski. Thank you.
    Dr. Riley, you mentioned in your testimony that after many 
years, we are still lacking the analytic capability to measure 
the effectiveness of our border security tools and policy 
mechanisms. I understand your solution for measuring this is 
further investment in developing a strategy for R&D and 
investment in technology infrastructure. Considering there are 
various types of illegal border activity with no one-size-fits-
all solution, what types of technologies should we invest in to 
get the necessary data and models?
    Dr. Riley. Well, in terms of technology development and 
investment in that area, I think one of the things I would be 
looking for is a tighter and better designed requirements 
generation process so that we understand where the frontline 
providers of border security feel the need for new technologies 
and perceive the need for additional technology development. 
There has been some progress made in that area but generally, 
for example, the connection between technology transfer and 
requirements development in DHS is not as mature as it is, say, 
in the Department of Defense.
    Mr. Lipinski. What is the reason for that? Just, it has not 
been developed?
    Dr. Riley. I think growing pains, and there are significant 
structural differences between the Department of Defense and 
the Department of Homeland Security but I think the mere 
process of trying to incorporate all of the different elements 
that went into DHS and get them functioning smoothly is 
probably a limiting factor.
    Mr. Lipinski. Okay. And Mr. Maurer, according to multiple 
GAO reports, DHS is missing a strategic plan, which we had 
talked about. Further, it can't track its investments in R&D 
and thus cannot identify the total investment it has made in 
R&D. GAO has made recommendations to solve these problems but 
DHS has been quite vague, saying that it has taken some steps 
to update guidance. Since your office has been monitoring their 
progress, do you have an idea as to what has been getting in 
the way of developing this plan?
    Mr. Maurer. That is a really good question because we have 
been recommending--some of this goes back to a report that was 
issued two years ago, so DHS would be better placed to give the 
specific reasons. Our sense is that they certainly made 
progress on defining R&D, so that is the first step, but we 
would like to see them develop a strategy for the whole 
Department. We would like to see them develop a way to clearly 
articulate what processes and coordination mechanisms need to 
be in place, have a more effective way of implementing the 
various R&D projects across the Department. I would hope that 
the relatively new Under Secretary would take this on as one of 
his top priorities in his new role.
    Mr. Lipinski. Thank you. That--I yield back.
    Chairman Bucshon. Thank you, and I now recognize Chairman 
Broun for five minutes.
    Chairman Broun. Thank you, Mr. Chairman. I want to follow 
up on a question. In my opening statement, I mentioned that DHS 
needs a technology roadmap to manage its R&D activities. What 
is DHS's biggest impediment to developing that organized and 
comprehensive national border security strategy? I will start 
with Mr. Maurer.
    Mr. Maurer. I would say that probably the biggest challenge 
they face is just the sheer complexity of the task that they 
are trying to accomplish. It involves predominantly at CBP but 
it is going to involve Science and Technology and other parts 
of the Department as well. It is a multifaceted problem, which 
touches on many different aspects of the Department, so it is a 
difficult challenge that they face, and trying to come up with 
a comprehensive strategy is also difficult. Now, we have been 
somewhat critical of the Department on different aspects of 
border security and their ability to measure the impact of the 
technology investments, for example, that they have made over 
the past many years. If they can make progress on that front, 
that would help get them further down the road where they need 
to be on developing a comprehensive strategy for border 
security.
    Chairman Broun. Well, if you can give us part of what we 
call QFR, questions for the record, recommendations of how to 
get over this impediment.
    Dr. Riley, do you have any comments on this also?
    Dr. Riley. Just jotting a note to myself. The border is 
obviously a complex issue. Different pieces of bureaucracy even 
within the Department of Homeland Security touch on the border, 
and nobody really owns it. We need to find a way to get a 
greater single point of accountability on the breadth of border 
issues, whether that is something that is, as I said in 
previous comment, integrated in an Under Secretary for Policy, 
whether it is the appointment of a border czar as we have done 
on other policy issues in other contexts. I am not quite sure. 
But there is no single point of accountability on the border, 
and having that may be something that prompts progress.
    Chairman Broun. Mr. Maurer, let me read to you a few 
sentences from your own testimony related to DHS R&D 
activities. You said, ``S&T officials told us at the time that 
a process did not exist at DHS or within S&T to prevent overlap 
or unnecessary duplication. We also found in September 2012 
that neither DHS nor S&T tracked all ongoing R&D projects 
across the Department including R&D activities contracted 
through the National Laboratories. As part of our review, we 
identified 11 components that reimbursed the National 
Laboratories for R&D from fiscal years 2010 through 2012, but 
S&T's Office of National Laboratories could not provide us with 
any information on those activities and told us it did not 
track them. As of July 2014, DHS has not developed new policy 
guidance.''
    These are issues going back for a couple of years. Now, I 
understand that in some areas, DHS appears to be taking initial 
steps to meet GAO's multiple recommendations such as conducting 
portfolio reviews across the Department and collecting feedback 
from customers, but this Department is no longer in its 
infancy. In fact, it has been around for over a decade now, and 
when I read that DHS has not yet determined the most effective 
path to guide R&D across the Department or that S&T has not 
developed new policy guidance, I have to ask, should some or 
all of DHS's R&D components be placed on GAO's high-risk list, 
which, as you know, is reserved for agencies in program areas 
vulnerable to fraud, waste, abuse and mismanagement, or are 
they in most need of transformation? So should they be on the 
high-risk list?
    Mr. Maurer. Well, to some extent, they already are. We have 
an existing high-risk area for----
    Chairman Broun. But have you named them on the high-risk 
list?
    Mr. Maurer. Specifically to R&D?
    Chairman Broun. Yes.
    Mr. Maurer. We don't have a specific shout-out to R&D but 
the problems that they face in terms of coordination and 
tracking are rooted in more fundamental issues with the 
Department's inability to stitch itself together in a 
comprehensive way, so we have a high-risk area for management 
at DHS, which has been critical of DHS's efforts to develop a 
common approach to acquisition and financial management, 
information technology, human capital. A lot of these things 
are the building blocks of organizations, and to some extent 
are some of the root causes as to why DHS doesn't have 
visibility over R&D spending. They don't have the financial 
systems that allow them to do that, for example.
    Chairman Broun. Well, my time is about up. I encourage you 
to put them on the high-risk list because just by your own 
testimony, there is just tremendous problems there, and I think 
they should be and I encourage you to do so.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Bucshon. Thank you. Votes have been called but we 
do have some time, so we are going to go ahead--I am going to 
go ahead and recognize Mr. Maffei for his line of questioning, 
and then we will see where we are and then go from there.
    Mr. Maffei. Thank you, Mr. Chairman.
    Mr. Maurer, first of all, I apologize for giving you a 
doctorate in my opening statement. You can pick that up after 
the hearing.
    I really appreciate the work of all the witnesses on this, 
and it has been a very informative hearing.
    One thing I want to ask you, Mr. Maurer, is, DHS has had 
some rather large R&D failures. One example is that they 
canceled a very large and one of the most comprehensive 
technological investments, SBInet, after investing nearly a 
billion dollars. Has this changed at all the way they are 
approaching it, and are they able to salvage any of that 
technology?
    Mr. Maurer. You are absolutely right. SBInet was a failed 
project at DHS. DHS has a slightly different approach to 
developing new technology for the border. They have the Arizona 
Technology Plan. DHS's current approach is to rely more 
extensively on commercial off-the-shelf technology and using 
that to deploy for security--for helping secure the border. We 
still have some concerns about how that particular program is 
being implemented, specifically in the area of testing. We have 
issued reports and we have testified previously that we don't 
believe that the amount of testing that is going to be done for 
the Arizona Technology Plan is sufficient. That was one of the 
root causes of the problems that plagued SBInet, so our hope is 
that DHS will take us up and adopt our recommendation.
    Mr. Maffei. Thank you.
    Dr. Riley, can you give me any sense, how robust is this 
technology? I don't want to be cynical but sometimes you get 
the impression that--I mean, I have got a bunch of friends from 
high school who are really good technically and they could come 
up, set up motion sensors, cameras, lasers, even UAVs now, and 
for much a cheaper cost do a lot of the same thing. Tell me I 
am wrong.
    Dr. Riley. The technologies are good and mature. I think 
one of the areas where DHS and, frankly, many government 
agencies struggle is kind of the tooth to tail, where do you 
have the people to back up and integrate with the technology to 
make the most and best effective use of it. DHS is making 
progress in this area. Their acquisition processes are 
maturing, but they are certainly not perfect at this point.
    Mr. Maffei. Thanks.
    Dr. Eyerman, do you have anything to add, particularly 
involving that human--the human element there?
    Dr. Eyerman. Absolutely. I completely agree with Dr. 
Riley's comments. We worked on an evaluation of a technology 
for biometric identification at the airports. The technology 
was quite ready. It was off the shelf. It was effective. The 
problem was, is the technology couldn't be integrated into the 
human systems, and that is where it would break down, because 
if it was integrated into the human systems, it would result in 
large delays at the airport. It was unclear who would be 
responsible for implementing the technology, and there were 
serious cost implications for the airlines which couldn't be 
addressed by the technology, only by research into the humans.
    Mr. Maffei. Thank you very much. I am going to yield my 
final two minutes to the gentlewoman from Connecticut, Ms. 
Esty.
    Ms. Esty. Thank you.
    A quick question, a follow-up for you, Mr. Maurer. You had 
mentioned that only a sixth of the R&D funding around border 
issues is actually done with DHS. We have already heard 
considerable testimony how that isn't even managed very well. 
So where is the other five-sixths? Who are the lead agencies 
and how should we be thinking about who sets the strategic 
goals, how can they be better coordinated? I would really like 
your advice, and then if others want to chime in. Thank you.
    Mr. Maurer. Sure. Absolutely. DHS is one-sixth of the total 
pie for all of Homeland Security R&D, so we don't know how it 
breaks out specifically for border, but the other five-sixths 
for all Homeland Security, a lot of it is being done at DoD and 
the Department of Health and Human Services. Writ large one 
thing that would help that overall coordination is the 
development of the statutorily required, government-wide 
approach to Homeland Security R&D, and that is something that 
has been on the books for a number of years.
    Ms. Esty. Thank you. Anybody else?
    Dr. Riley. I will just say that I think in conversations 
and discussion about the border, it is common to lapse into 
thinking only about the southern land border and we really need 
to be more careful thinking holistically about air, sea and 
land borders north and south.
    Ms. Esty. Coming from Connecticut, we think about this in 
terms of our ports, and it is an issue. We have the Strategic 
Petroleum Reserve in my state. We have nuclear plants all up 
and down the East Coast that are right on the coast, and I 
heartily agree. We can't just be thinking about the southern 
border. Thank you.
    Chairman Bucshon. I now yield to the Chairman of the full 
Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    First of all, I would like to enter into the record two 
items from Petro Data Communications.
    Chairman Bucshon. No objections. So ordered.
    Chairman Smith. Thank you.
    [The information appears in Appendix I]
    Chairman Smith. And let me say to our witnesses, we are 
going to try to squeeze in two more questions in the next 7 or 
8 minutes, so if you could give brief responses to my 
questions, we will see if that works.
    Dr. Riley, let me address my first question to you, and 
that is, in 2011, the Administration canceled a Secure Border 
Initiative. In 2012, it withdrew 1,200 National Guard troops 
from the border. Do you think the result of those actions made 
it easier for illegal immigrants to cross the border?
    Dr. Riley. It is difficult to say, Mr. Chairman, but both 
of those were important initiatives that I frankly would like 
to see followed through on in the near future.
    Chairman Smith. Okay. Thank you.
    My next question is to all three of you all, if you would, 
and that is, how would you grade the Department of Homeland 
Security on its use of technology today to secure the border? 
Real quickly, Dr. Riley?
    Dr. Riley. Incomplete.
    Chairman Smith. Dr. Maurer?
    Mr. Maurer. I would say the same thing, incomplete.
    Chairman Smith. Okay. And Dr. Eyerman?
    Dr. Eyerman. I agree.
    Chairman Smith. Okay. What type of technology are they 
using, Dr. Riley or Dr. Maurer?
    Mr. Maurer. There is a large range of technologies from 
unmanned aerial stats and----
    Chairman Smith. You are saying just a lot more they could 
be doing? Is that what you meant by ``incomplete''?
    Dr. Riley. It is simply too complicated an issue to grade 
out in a few minutes before a Committee like this, I think.
    Chairman Smith. Okay. Well, we will take the ``incomplete'' 
for the time being.
    Mr. Maurer, I want to ask you a question about the GAO. In 
2011, you took a look at, I think, 873 miles of border and you 
said only 15 percent was under control of the Border Patrol. 
What did you mean by ``under control''? How would you define 
that?
    Mr. Maurer. In that report, we were using a measure that 
CBP used at that time for operational control of the border. 
CBP no longer uses that particular measure in their effort to 
assess border security.
    Chairman Smith. But my question was, what did the 
definition mean when you undertook this study of control of the 
border only 15 percent?
    Mr. Maurer. I think that was part of the problem, and that 
is part of the reason why CBP moved away from that definition. 
It was open to a wide interpretation.
    Chairman Smith. I think the reason they moved away because 
it was embarrassing that only 15 percent of the border was 
under full control, myself, but again, full control, I was told 
in a previous hearing, meant that there was a high likelihood 
that illegal immigrants would be intercepted.
    Mr. Maurer. That is correct. That tracks back to the work 
that we did in 2011.
    Chairman Smith. Okay. Which led to 85 percent of the border 
under something less than full control.
    Thank you, Mr. Chairman. I am going to yield now the 
remainder of my time to the gentleman from Arizona, Mr. 
Schweikert.
    Chairman Bucshon. I ask unanimous consent to allow Mr. 
Schweikert to participate in the hearing. Without objection, 
the Chair then-- it is ordered.
    Mr. Schweikert. You mean I could have objected to myself 
being here?
    Okay. Let us see if we can do a quick lightning round here. 
Dr. Riley, in your written testimony, and I think actually in 
your spoken testimony, there was a comment about some of the 
access to data and how much data was sort of off the books or 
you were not allowed to gain access to. Can you give me a quick 
snippet of how that affects trying to create policy and design?
    Dr. Riley. It limits the ability to interact in the 
academic and analytic communities, and it has a stifling effect 
on being able to develop innovative approaches to border 
security.
    Mr. Schweikert. So if Dr. Eyerman is trying to look at data 
sets to build human interaction, he doesn't actually have 
enough robust data sets to work from?
    Dr. Riley. It is not only the availability of the data, 
although that is certainly the case. Those data need to be 
collected and the data sets built, but it is also the ability 
to draw on our academic partners. IHSS has a consortium with 
Duke and UNC, and many of the universities won't work on data 
that is not publishable.
    Mr. Schweikert. Well, and formerly Dr. Mr. Maurer, you 
actually almost just touched on this, that for many of us who 
are trying to get our heads around border policy, being from a 
border state, the definitions keep changing on me. One day we 
calculate it this way, the next day we calculate it this way. 
One day, for human smuggling, you know, if you are captured in 
this distance, you are considered deportation. The next day 
that is redefined. When you are doing your analysis, is this a 
continued problem of constantly moving the definitions, let 
alone the access to the actual data for the researchers?
    Mr. Maurer. That certainly makes it more difficult to have 
a consistent--they don't have consistent measures for assessing 
border security, and they change from year to year going back 
to 2011, so that does make that more challenging. And we have 
had reports that have talked about the important need for that, 
most critically having a need to assess the impact of the 
technologies that have been deployed on the border. We have 
been critical of CBP's inability to demonstrate the extent to 
which deployed technology, what impact it has security.
    Mr. Schweikert. Mr. Chairman, I know I am over time but 
from my understanding, this is actually a bigger issue than a 
lot of people understand. It is hard to know what you are 
chasing when two things happen: they don't tell you or they 
change that definition. And then there's the whole more 
cultural decision of can you ever have a large bureaucracy be 
as nimble and flexible when trying to design fixed technologies 
when the other side is incentivized to constantly beat that 
technology and be more nimble for the profit side. Thank you, 
Mr. Chairman.
    Chairman Bucshon. Thank you.
    At this point I would like to thank the witnesses for their 
valuable testimony. We will not be returning after votes. We 
will be adjourning here shortly as everyone has been able to 
ask their questions. Your written testimony and your oral 
testimony is very valuable to the Subcommittee. Members of the 
Committee may have additional questions for you, and we will 
ask that you respond to those in writing. The record will 
remain open for two weeks for additional comments and written 
questions from Members.
    At this point the witnesses are excused and the hearing is 
adjourned.
    [Whereupon, at 11:06 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. K. Jack Riley


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. David C. Maurer



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




                  Prepared statement of Full Committee
                  Ranking Member Eddie Bernice Johnson


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Additional supporting information requested by
                 Full Committee Chairman Lamar S. Smith



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
